No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

EFRAIN CAMARILL CRUZ,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals

CERTIFICATE OF SERVICE

I, Michael Ufferman, member of the Bar of this Court, hereby certifies that on
this 8th day of September, 2020, a copy of the Petition for Writ of Certiorari in the
above-entitled case was mailed first class, postage prepaid, to:
Office of the Attorney General
444 Seabreeze Boulevard, Suite 500
Daytona Beach, Florida 32118

Page 1 of 2

I further certify that all parties required to be served have been served.

Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 2

